No. 19-1101
In the

Supreme Court of the United States
__________________
CANADA,
v.
CYNTHIA L. MERLINI,
__________________

Petitioner,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

__________________

BRIEF IN OPPOSITION
__________________
Of counsel:
Alan S. Pierce
Pierce, Pierce & Napolitano
27 Congress St.
Salem, Mass. 01970

Theodore Joel Folkman
Counsel of Record
Folkman LLC
PO Box 116
Boston, Mass. 02131
(617) 219-9664
ted@folkman.law

Counsel for Respondent

April 21, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Canada, which operates a consulate in Boston,
did not obtain workers’ compensation insurance or a
license to self-insure, as Massachusetts law requires.
Merlini, an American clerical employee, was injured on
the job. Merlini brought a common-law action for
damages, as Massachusetts law permits in cases where
the employer is uninsured. She alleged that she was
not a citizen of Canada; that her duties were entirely
clerical; that she was not a consular officer and
performed no governmental, consular, diplomatic, or
other official tasks; and that she took no competitive
examination before hire, was not entitled to tenure,
and did not receive the same benefits as a foreign
service officer. Is Canada immune from suit
notwithstanding the commercial activity exception to
foreign sovereign immunity?
2. Merlini’s injury was caused by the negligence of
a fellow worker, who failed to secure a telephone cord
to the floor. If the commercial activity exception does
not apply, is Canada immune from suit
notwithstanding the noncommercial tort exception to
foreign sovereign immunity?

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
COUNTERSTATEMENT . . . . . . . . . . . . . . . . . . . . . 1
A. The Accident and Canada’s Response . . . . . . 1
B. The Claim for Benefits from the Workers’
Compensation Trust Fund . . . . . . . . . . . . . . . 3
C. The Common-Law Claim for Damages. . . . . . 4
D. The First Circuit’s Decision . . . . . . . . . . . . . . 7
REASONS TO DENY THE PETITION . . . . . . . . . 11
A. There Is No Square Conflict . . . . . . . . . . . . . 11
B. The First Circuit’s Decision Is Correct . . . . . 16
1. A Foreign Sovereign Cannot Claim
Immunity By Relying On The Sovereign
Purposes Behind Its Actions . . . . . . . . . . 18
2. Facts And Circumstances That A Plaintiff
Does Not Need To Plead Or Prove Cannot
Possibly Be Part Of The Gravamen Of
Her Case . . . . . . . . . . . . . . . . . . . . . . . . . . 21
C. This Case Is A Poor Vehicle. . . . . . . . . . . 23
D. The First Circuit Decision Poses No Real
Risk to Foreign Sovereigns Doing
Business Here or to the US Government
When Doing Business Abroad . . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iii
TABLE OF AUTHORITIES
CASES
Am. Constr. Co. v. Jacksonville, Tampa &
Key W. Ry. Co., 148 U.S. 372 (1893). . . . . . . . . . 23
Anglo-Iberia Underwriting Management v. P.T.
Jamsostek, 600 F.3d 171 (2d Cir. 2010) . . . . 12, 13
Atl. Marine Constr. Co. v. U.S. Dist. Court for
the W. Dist. of Tex., 571 U.S. 49 (2013) . . . . . . . 25
Barrett v. Transformer Serv., Inc.,
374 N.E.2d 1325 (Mass. 1978) . . . . . . . . . . . . 6, 23
Butters v. Vance Int’l, Inc.,
225 F.3d 462 (4th Cir. 2000). . . . . . . . . . . . . . . . 18
El-Hadad v. United Arab Emirates,
496 F.3d 658 (D.C. Cir. 2007) . . . . . . . . . 11, 12, 17
Food Marketing Inst. v. Argus Leader Media,
139 S. Ct. 2356 (2019). . . . . . . . . . . . . . . . . . . . . 16
Gregorian v. Izvestia,
871 F.2d 1515 (9th Cir. 1989). . . . . . . . . . . . . . . 14
Hanover Ins. Co. v. Ramsey,
539 N.E.2d 537 (Mass. 1989) . . . . . . . . . . . . . . . . 6
Holden v. Canadian Consulate,
92 F.3d 918 (9th Cir. 1996). . . . . . . . . . . 11, 12, 17
Howard v. Lightner,
214 A.2d 474 (D.C. 1965) . . . . . . . . . . . . . . . . . . . 5
In re Opinion of the Justices,
34 N.E.2d 527 (Mass. 1941) . . . . . . . . . . . . . . . . . 6

iv
Jungquist v. Sheikh Sultan bin Khalifa al Nahyan,
115 F.3d 1020 (D.C. Cir. 1997) . . . . . . . . . . . 12, 13
Kato v. Ishihara,
360 F.3d 106 (2d Cir. 2004) . . . . . . . . . . 15, 16, 18
Lim v. Offshore Specialty Fabricators, Inc.,
404 F.3d 898 (5th Cir. 2005). . . . . . . . . . . . . . . . 25
MacArthur Area Citizens Ass’n v. Republic of Peru,
809 F.2d 918 (D.C. Cir. 1987) . . . . . . . . . . . . 14, 15
Morgan v. Robacker,
151 N.Y.S.2d 836 (App. Div. 1956). . . . . . . . . . . . 5
Nat’l City Bank of N.Y. v. Republic of China,
348 U.S. 356 (1955). . . . . . . . . . . . . . . . . . . . . . . 25
O’Dea v. J.A.L., Inc.,
569 N.E.2d 841 (Mass. App. Ct. 1991) . . . . . . . . . 6
OBB Personenverkehr AG v. Sachs,
136 S. Ct. 390 (2015). . . . . . . . . . . . . 21, 22, 25, 26
Olsen v. Government of Mex.,
729 F.2d 641 (9th Cir. 1984). . . . . . . . . . . . . . . . . 9
Republic of Argentina v. Weltover, Inc.,
504 U.S. 607 (1992). . . . . . . . . . . 10, 19, 20, 21, 22
Rodríguez v. Municipality of San Juan,
659 F.3d 168 (1st Cir. 2011) . . . . . . . . . . . . . . . . 16
Rush-Presbyterian-St. Luke’s Med. Ctr. v.
Hellenic Republic,
877 F.2d 574 (7th Cir. 1989). . . . . . . . . . . . . . . . 14

v
Saudi Arabia v. Nelson,
507 U.S. 349 (1993). . . . . . . . . . . . . . . . . . 7, 21, 22
Segni v. Commercial Office of Spain,
835 F.2d 160 (7th Cir. 1987). . . . . . . . . . 11, 12, 17
Truong v. Wong,
775 N.E.2d 405 (Mass. App. Ct. 2002) . . . . . . . . . 6
USAA Cas. Ins. Co. v. Permanent Mission
of the Republic of Namib.,
681 F.3d 103 (2d Cir. 2012) . . . . . . . . . . . . . . . . . 9
Va. Military Inst. v. United States,
580 U.S. 946 (1993). . . . . . . . . . . . . . . . . . . . . . . 23
Verlinden B.V. v. Central Bank of Nigeria,
461 U.S. 480 (1983). . . . . . . . . . . . . . . . . . . . . . . . 4
STATUTES
28 U.S.C. § 1603(d). . . . . . . . . . . . . . . . . . . . . . . 18, 20
28 U.S.C. § 1605(a)(2) . . . . . . . . . . . . . . . . . . . . . . 6, 7
28 U.S.C. § 1605(a)(5) . . . . . . . . . . . . . . . . . . 6, 7, 8, 9
Cal. Lab. Code § 3708. . . . . . . . . . . . . . . . . . . . . . . 5, 6
D.C. Code § 32-1504(b). . . . . . . . . . . . . . . . . . . . . . . . 5
Mass. Gen. Laws ch. 152, § 1(7) . . . . . . . . . . . . . . . . 2
Mass. Gen. Laws ch. 152, § 25A . . . . . . . . . . . . . . . . 2
Mass. Gen. Laws ch. 152, § 65(2) . . . . . . . . . . . . . 3, 4
Mass. Gen. Laws ch. 152, § 66. . . . . . . . . . . . . . . . 5, 7
Mass. Gen. Laws ch. 152, § 67. . . . . . . . . . . . . . . . . . 5

vi
N.Y. Workers’ Comp. Law § 11 . . . . . . . . . . . . . . . 4, 5
Government Employees Compensation Act, R.S.C.
1985, c. G-5 (Can.). . . . . . . . . . . . . . . . . . . . passim
TREATIES
Convention on the Recognition and Enforcement of
Foreign Arbitral Awards, Jun. 10, 1958, 21
U.S.T. 2517, 330 U.N.T.S. 38 . . . . . . . . . . . . . . . 24
Vienna Convention on Consular Relations, Apr. 24,
1963, 21 U.S.T. 77, 596 U.N.T.S. 261 . . . . . . . . 11
OTHER AUTHORITIES
H.R. Rep. No. 94-1487, 1976 U.S.C.C.A.N.
6604 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 17
9 Lex K. Larson, Larson’s Workers’ Compensation
Law . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 6

1
INTRODUCTION
Canada failed to do what the law requires nearly
every employer in Massachusetts to do: it failed to
purchase workers’ compensation insurance or to obtain
a license to self-insure. Merlini, a worker injured on the
job, sued Canada under Massachusetts’s unique statute
providing for strict liability in common-law tort suits
against uninsured employers.
This case meets none of the Court’s usual criteria
for granting review. There is no circuit split for this
Court to resolve. The First Circuit’s decision was
correct on the merits and amply supported by this
Court’s precedents and by sound policy. A decision by
this Court may not finally resolve the question of
jurisdiction considering Canada’s announced intention
to bring a new motion to dismiss for lack of subjectmatter jurisdiction after the case is remanded. And
there is no risk to US foreign policy or to international
comity that justifies review of a case that is unique and
highly unlikely to recur. The Court should deny the
petition.
COUNTERSTATEMENT
A. The Accident and Canada’s Response.
Cynthia Merlini worked for the government of
Canada as an assistant to its consul general at its
consulate in Boston. She was an American living in
Massachusetts. Her duties at the consulate were
clerical and comparable to the duties of a secretary at
any private business: she answered the telephone,
maintained files, typed letters, and performed other
secretarial tasks. She was not a consular officer. She

2
performed no governmental, consular, diplomatic, or
other official duties. She took no competitive
examination before her hire, she was not entitled to
tenure, and she did not receive the same benefits as a
Canadian foreign service officer. App. 70a.
In January 2009, Merlini was setting out coffee and
tea for a meeting to be held at the consulate. She
tripped over a speakerphone cord, hitting a credenza.
A fellow worker caused the accident by negligently
failing to secure the cord to the floor. Merlini suffered
a serious injury. App. 71a. An administrative judge in
the Massachusetts Department of Industrial Accidents
(“the DIA”) found, years later, that the injury had left
her “totally and permanently incapacitated from all
work of a remunerative nature.” Merlini v. Consulate
General of Canada, Bd. No. 35748-09, slip. op. at 8
(Mass. Dept. of Indus. Acc. Sept. 17, 2013).
Massachusetts law requires nearly every employer
to provide compensation for injured employees by
“insurance with an insurer” or by “obtaining from the
[DIA] annually a license as a self-insurer.”1 Mass. Gen.
Laws ch. 152, § 25A. Canada acknowledges that it did
neither. Instead, Canada paid benefits to Merlini under
a Canadian law—the Government Employees
Compensation Act, R.S.C. 1985, c. G-5 (Can.)
1

An “insurer,” under the statute, is not just a company in the
insurance business or one that provides benefits measured by some
other jurisdiction’s law, but one that has “contracted with an
employer to pay the compensation provided for by this chapter.”
Mass. Gen. Laws ch. 152, § 1(7) (emphasis supplied). A self-insurer
is treated as an insurer for purposes of the statute, see id., and
must therefore pay the benefits provided by Massachusetts law,
not by some alternative benefits scheme that it creates.

3
(“GECA”)—for a few months until October 2009, when
it decided—wrongly, as a Massachusetts
administrative judge later found— that she was able to
return to work.
B. The Claim for Benefits from the Workers’
Compensation Trust Fund.
Merlini then sought benefits from the
Massachusetts Workers’ Compensation Trust Fund, a
fund established by the Commonwealth to provide
compensation to workers whose employers had not
obtained insurance or a license to self-insure as
required by law. To succeed on a claim against the
Trust Fund, the worker must show, among other
things, that she is not entitled to workers’
compensation benefits in another jurisdiction. Mass.
Gen. Laws ch. 152, § 65(2). An administrative judge
awarded Merlini benefits, but in August 2012, the DIA
Reviewing Board remanded for further consideration of
the requirements of § 65(2).
On remand, the administrative judge again found
that Merlini was unable to work and entitled to
benefits from the Trust Fund. The Trust Fund
appealed, and the DIA Reviewing Board reversed,
holding that that Merlini was not entitled to benefits
from the Trust Fund because she was entitled to the
benefits she had received under GECA. Merlini v.
Consulate General of Canada, 29 Mass. Workers’
Comp. Rep. 41 (Dept. Indus. Acc. Rev. Bd. 2015).2
2

There were two other bases for the DIA Reviewing Board’s
decision. First, the Board held that Canada was not “subject to the
personal jurisdiction of the commonwealth,” as § 65(2) requires; it

4
Merlini appealed to the Massachusetts Appeals Court,
arguing that the benefits she had received under GECA
were discretionary and that she had not been entitled
to receive them. In an unpublished decision, the court
affirmed, holding that under Canadian law, Merlini
was entitled to benefits under GECA. Merlini’s Case,
No. 15-P-847, 2016 WL 3549598 (Mass. App. Ct. Jun.
29, 2016).
C. The Common-Law Claim for Damages.
Many jurisdictions allow injured employees of
uninsured employers to elect between claiming
statutory workers’ compensation benefits from the
employer or bringing a common-law claim for tort
against the employer. See, e.g., N.Y. Workers’ Comp.
reasoned that the administrative judge “lack[ed] authority to make
such a determination because the FSIA vests that authority in the
federal courts.” Id. at 45 (emphasis supplied). This conclusion was
plainly incorrect, because under the FSIA the state and federal
courts have concurrent jurisdiction of actions against foreign
states. See Verlinden B.V. v. Central Bank of Nigeria, 461 U.S. 480,
489 (1983). Second, the Board held that Canada was not
“uninsured in violation of” the Massachusetts Workers’
Compensation law, as § 65(2) also requires; the Board rested its
conclusion on immunity under the FSIA, apparently concluding
that because the DIA “lack[ed] jurisdiction to determine whether
an exception to … immunity applies,” the mere invocation of
immunity by a foreign state requires dismissal for lack of
jurisdiction. Merlini v. Consulate General of Canada, 29 Mass.
Workers’ Comp. Rep. at 47. Canada argued below that these two
holdings should have issue-preclusive effect. But because Merlini
appealed from them and the Massachusetts Appeals Court
affirmed on other grounds, the First Circuit rightly rejected the
preclusion argument. (App. 33a-34a). Canada has never defended
the Board’s reasoning on the merits, nor has it sought review in
this Court of the First Circuit’s decision on issue preclusion.

5
Law § 11; D.C. Code § 32-1504(b). Massachusetts does
not give the worker an election of remedies against the
uninsured employer. The worker’s only remedies are to
seek benefits from the Trust Fund—a path that was
closed to Merlini—or to bring a common-law tort action
against the uninsured employer under Mass. Gen.
Laws ch. 152, §§ 66 and 67.3 Section 66 provides that
“[a]ctions brought against employers to recover
damages for personal injuries … sustained … by an
employee in the course of his employment” must be
brought within twenty years, and that contributory or
comparative negligence, the negligence of a fellow
employee, assumption of risk, and the employer’s lack
of negligence “shall not be defense[s]” to such a claim.
Section 67 provides that § 66 “shall not apply to actions
to recover damages for personal injuries received by
employees of an insured person or a self-insurer.” In
effect, the statutes modify the common law by making
an uninsured employer strictly liable for injuries
occurring in the course of employment.4 The worker can
3

Canada is wrong to lump in §§ 66 and 67 with laws in other
states that “replace common law tort liability with a regulatory
compensation scheme” (Pet. at 29). Section 66 merely modifies the
preexisting common-law tort action, and it does not limit damages
to the benefits prescribed by the “regulatory compensation
scheme.”

4

Massachusetts law is apparently unique in allowing an injured
worker to recover tort damages from an uninsured employer in a
common-law action without proof of negligence. See 9 Lex K.
Larson, Larson’s Workers’ Compensation Law § 102.01[2] at n.9. In
many jurisdictions the injured worker has the burden to prove the
employer’s negligence. See, e.g., Howard v. Lightner, 214 A.2d 474,
476 (D.C. 1965); Morgan v. Robacker, 151 N.Y.S.2d 836, 837 (App.
Div. 1956). In others, there is a rebuttable presumption of
negligence, which the employer can overcome. See, e.g., Cal. Lab.

6
recover all tort damages and is not limited to the
statutory benefits she would have received if the
employer had been insured. See Truong v. Wong, 775
N.E.2d 405, 407 (Mass. App. Ct. 2002). Entitlement to
benefits under another jurisdiction’s law is not a
defense to a common-law claim against the uninsured
employer, as it is to an administrative claim against
the Trust Fund. See Barrett v. Transformer Serv., Inc.,
374 N.E.2d 1325, 1328 (Mass. 1978). All that the
injured worker need prove in order to show liability is
that “she suffered a workplace injury in the course of
her employment and that the defendant … was her
employer.” (App. 15a). See Hanover Ins. Co. v. Ramsey,
539 N.E.2d 537, 538 n.3 (Mass. 1989). She does not
need to prove that “any action by any person,”
including the uninsured employer, “caused the
underlying injury.” (App. 14a-15a).
Merlini brought a common-law claim against
Canada in the District Court. She asserted that the
court had subject-matter jurisdiction under the
commercial activity exception to foreign sovereign
immunity, 28 U.S.C. § 1605(a)(2), or in the alternative,
under the noncommercial tort exception, 28 U.S.C.
Code § 3708. Thus in most jurisdictions, the uninsured employer’s
negligence is relevant, one way or another, to the injured
employee’s common-law claim against the employer. See 9 Larson,
supra § 102.02[6]. Massachusetts, on the other hand, makes the
uninsured employer strictly liable at common law regardless of
negligence. See O’Dea v. J.A.L., Inc., 569 N.E.2d 841, 842 (Mass.
App. Ct. 1991). Its law creates “a cause of action in an employee
sustaining an injury ‘in the course of his employment’ that is a
‘direct result’ of such employment, though not a ‘direct result of
any negligence on the part of the employer.’” See In re Opinion of
the Justices, 34 N.E.2d 527, 544 (Mass. 1941).

7
§ 1605(a)(5). Both exceptions turn on identifying the
conduct that the claim is “based upon.” To pass muster
under § 1605(a)(2), the claim must be based upon
Canada’s commercial activity. To survive under
§ 1605(a)(5), it must not be based upon the exercise or
performance of, or failure to exercise or perform, a
discretionary function.
Canada moved to dismiss for lack of subject-matter
jurisdiction, arguing that neither exception applied on
the allegations of the complaint (Canada mounted a
facial attack on the complaint and did not offer any
evidence). The District Court dismissed for lack of
jurisdiction. App. 67a. Merlini appealed.
D. The First Circuit’s Decision.
There were two main questions on appeal. First,
what was Merlini’s claim based upon? To determine the
basis, the court had to look to “those elements of [the]
claim that, if proven, would entitle [Merlini] to relief
under [her] theory of the case.” Saudi Arabia v. Nelson,
507 U.S. 349, 357 (1993). The parties and the United
States as amicus curiae identified three possibilities:
Merlini’s employment; the negligence of Merlini’s
fellow worker; or Canada’s failure to purchase
insurance.5 Merlini argued that the action was based
5

Canada’s petition misstates the United States’ position.
According to the petition (Pet. at 9-10), the United States joined
Canada in arguing “that the gravamen of Merlini’s claim under
MWCA § 66 was Canada’s sovereign legislative decision to
structure its consular operations on the basis that its own GECA
scheme comprehensively and exclusively governs workers’
compensation for its consular employees.” In fact, the United
States rejected the “district court[‘s] conclu[sion] that plaintiff’s

8
on the employment or on Canada’s failure to obtain
insurance and that she prevailed on either theory
under the commercial activity exception; she argued in
the alternative that the action was based on her fellow
worker’s negligence.6 The United States argued that
the action was based on the accident caused by the
fellow worker’s negligence and suggested a remand to
determine whether the noncommercial tort exception
applied. Canada argued that the action was based not
just on the lack of workers’ compensation insurance,
but on its deliberate decision not to purchase insurance
or to self-insure as required by the Massachusetts
statute.
Second, once the court identified the particular
conduct on which Merlini’s claim was based, was that
conduct commercial activity for purposes of the
commercial activity exception to foreign sovereign
immunity?7
action is based upon Canada’s choice of workers’ compensation
systems,” arguing that that view “cannot be reconciled with the
Supreme Court’s approach to the gravamen inquiry,” and asserting
instead that “[t]he trip-and-fall accident … forms the gravamen of
plaintiff’s action.” (Brief of the United States as Amicus Curiae at
1; see also id. at 8-12). The United States did, however, agree with
Canada’s argument that the commercial activity exception would
not apply if, as Canada argued, the gravamen of the action was
“Canada’s choice of workers’ compensation systems.” (Id. at 15).
6

If the case is within the commercial activity exception, it cannot
be within the noncommercial tort exception, and vice versa: the
noncommercial tort exception applies only in cases “not otherwise
encompassed in” the commercial activity exception. See 28 U.S.C.
§ 1605(a)(5).

7

The court did not reach the question whether the fellow worker’s
failure to secure the cord to the floor was “the exercise or

9
The First Circuit reversed and remanded. App. 53a.
The majority (Kayatta and Barron, JJ.) and the
dissenter (Lynch, J.) agreed that Merlini’s claim was
not based upon the negligence of her fellow worker, as
the United States urged, because the employer’s
negligence is not relevant to Merlini’s case under
Massachusetts law. App. 14a-15a (panel decision); App.
36a n.9 (Lynch, J., dissenting).
The court did not decide between the two remaining
possibilities, because it held that Merlini prevailed
under the commercial activity exception whichever
theory was correct. Merlini prevailed if her claim was
based upon her employment, because Canada conceded
that her employment was commercial. App. 13a (“[I]f
Merlini’s complaint is ‘based on’ Canada’s employment
of her as a clerical worker doing routine clerical work
at the consulate in Boston, then the ‘commercial
performance or the failure to exercise or perform a discretionary
function,” 28 U.S.C. § 1605(a)(5)(A), because it held that the action
was not based on the fellow worker’s negligence. Had it reached
the question, it surely would have concluded that the negligent
failure to secure the cord was not the exercise or failure to exercise
of a discretionary function, but precisely the kind of ordinary
tortious conduct the noncommercial tort exception was meant to
reach. See, e.g., USAA Cas. Ins. Co. v. Permanent Mission of the
Republic of Namib., 681 F.3d 103, 113 (2d Cir. 2012) (foreign
mission failed to shore up a party wall; failure was not a
discretionary function even though it had made a policy decision
to locate its chancery in the building at issue); Olsen v. Government
of Mex., 729 F.2d 641, 646-47 (9th Cir. 1984) (prisoners being
transferred by air to the US under a prisoner exchange treaty were
killed in airplane accident due to pilot’s negligence; acts or
omissions were not discretionary, even though the prisoner
transport was pursuant to Mexico’s decision to enter into the
treaty).

10
activity’ exception would appear to apply. In fact,
Canada does not appear to argue otherwise”) (citation
omitted). If, on the other hand, the claim was based
upon Canada’s failure to purchase insurance or to
obtain a license to self-insure, Merlini prevailed,
because Canada’s failure was “the type of conduct by
which a private party engages in trade and traffic or
commerce.” App. 22a (citation and internal quotation
marks omitted). Canada may have been “motivated by
what it characterizes as its sovereign obligation to
provide its employees protection through its own
national workers’ compensation system,” App. 23a, but
the court held that in light of Republic of Argentina v.
Weltover, Inc., 504 U.S. 607 (1992), “the ‘motive behind’
Canada’s conduct … is not germane to the question of
whether the activity of doing just that is ‘commercial’
for purposes of the FSIA’s ‘commercial activity’
exception.” App. 23a.
Canada petitioned for rehearing en banc. It asked
the First Circuit to supplement the record and to
consider documents it had failed to put before the
District Court or the panel: a written employment
contract, various job descriptions, Canada’s LocallyEngaged Staff Terms and Conditions, and its Boston
LES (“locally-engaged staff”) Handbook. And for the
first time, Canada argued that Merlini’s allegation that
her employment was purely clerical was untrue.8 It
8

Canada asserts that it “did not concede the accuracy” of Merlini’s
allegations about the nature of her work, though it allows that “[i]n
the present posture, this Court may assume that Merlini’s duties
were ‘clerical’ in the sense of not imbuing her with policy-making
discretion.” (Pet. at 22 n.6). But in the District Court and before
the First Circuit panel, Canada did not seek to argue that Merlini’s

11
argued that supplementing the record would serve
judicial efficiency, because if the First Circuit, after
rehearing, affirmed, then on remand, Canada would
bring another motion to dismiss for lack of subjectmatter jurisdiction, and it would offer the documents to
support its motion. Canada also raised new arguments
under the Vienna Convention on Consular Relations,
Apr. 24, 1963, 21 U.S.T. 77, 596 U.N.T.S. 261, which it
had not raised in the District Court or before the panel
(Pet. for Rehearing at 14-15). The First Circuit denied
the petition for rehearing en banc. App. 54a. It also
denied Canada’s motion to supplement the record.
REASONS TO DENY THE PETITION
A. There Is No Square Conflict.
The closest appellate decisions to Merlini’s case on
the facts are Segni v. Commercial Office of Spain, 835
F.2d 160 (7th Cir. 1987), Holden v. Canadian
Consulate, 92 F.3d 918 (9th Cir. 1996), and El-Hadad
v. United Arab Emirates, 496 F.3d 658 (D.C. Cir. 2007).
The plaintiff in each case was employed by a foreign
government in an embassy (El-Hadad), consulate
(Holden), or trade office (Segni) in the United States.
Each brought an employment-related claim against the

allegations were untrue or to offer any evidence on that or any
other issue. Canada instead attacked the sufficiency of the
complaint on its face. As Canada notes (Pet. at 22 n.6), it did move,
unsuccessfully, for leave to supplement the record to offer evidence
it had not offered before concerning Merlini’s job duties. But that
motion came at the time Canada unsuccessfully petitioned for
rehearing en banc, after the First Circuit had decided the case. So
there was no dispute about Merlini’s job duties below.

12
foreign state.9 In each case, the court held or assumed
that the action was based on the employment or the
foreign state’s adverse employment action. (In Holden,
the court reached its holding about the basis of the
action after rejecting Canada’s argument—similar to
its argument here—that the action was based on its
sovereign decision to close the consulate where Holden
had been employed, see Holden, 92 F.3d at 920-21). And
in each, the court held that because the plaintiff’s
employment (or the act relevant to the employment,
such as the hiring) was commercial rather than
governmental, the foreign state had no immunity.
Holden, 92 F.3d at 921-22 (employment was
commercial); El-Hadad, 496 F.3d at 663-68
(employment was commercial); Segni, 835 F.2d 164-66
(hiring was commercial).
Judge Lynch, who dissented from the First Circuit’s
decision and from its denial of the petition for
rehearing en banc, did not cite any cases brought by
employees of foreign governments against their
employers as evidence of a circuit split. Anglo-Iberia
Underwriting Management v. P.T. Jamsostek, 600 F.3d
171 (2d Cir. 2010), and Jungquist v. Sheikh Sultan bin
Khalifa al Nahyan, 115 F.3d 1020 (D.C. Cir. 1997),
both involved claims that foreign officials were liable
for the way they administered foreign governmental
programs. In Anglo-Iberia, the claim was that
9

In Segni, the claim was for breach of contract, alleging a wrongful
termination. In Holden, the claim was for age and sex
discrimination following a termination. In El-Hadad, the claim
was for breach of contract, alleging a wrongful termination, and for
defamation related to the embassy’s response to inquiries from
prospective employers.

13
Indonesia and a state-owned insurer had negligently
failed to supervise employees of the insurer who had
been part of a reinsurance fraud scheme that had
injured Anglo-Iberia. In Jungquist, the plaintiff was
injured in a boating accident in Abu Dhabi, and Sheikh
Sultan, a government official, had promised that he
and the government would provide for her medical
care, allegedly in return for Jungquist’s silence about
his involvement in the boating accident. Jungquist
sued the UAE Medical Attaché who oversaw the
government health program that was to have provided
the care, and the Director of Patient Relations for the
program. The claim was that in “overseeing the
administration” of the program and arranging for
“logistical matters” connected with the program, id. at
1029, the defendant acted as the Sheikh’s “agents or coconspirators” in his alleged fraud, breaches of contract,
and infliction of emotional distress. Id. at 1028.
In both cases, the courts found that the defendants
were immune from suit. But in both cases, the claim
revolved around actions the defendants took in the
administration of foreign government programs.
Merlini, though, does not claim that Canada is liable to
her because of the way it administered GECA in her
case. As the First Circuit held in distinguishing the two
cases:
The reason that neither Jungquist nor AngloIberia aids Canada’s cause is simple. In each of
those cases, the claims at issue were based on
the defendants’ administration of the
government programs at issue independent of
any conduct by the foreign state as the employer

14
of the plaintiffs, such that it was the manner of
the administration of those programs—and not
the manner of the foreign state’s employment of
the plaintiffs—that was alleged to be wrongful.
(App. 28a-29a).
Nor is the First Circuit’s decision at odds with the
two other decisions Judge Lynch cited, Gregorian v.
Izvestia, 871 F.2d 1515 (9th Cir. 1989), and MacArthur
Area Citizens Ass’n v. Republic of Peru, 809 F.2d 918
(D.C. Cir. 1987). Gregorian was a libel claim against
the Soviet state-owned newspaper, Izvestia. The key
fact in Gregorian—the fact that made it clear that the
Soviet government was engaged in governmental
rather than commercial activity—was that Izvestia was
“the voice of an official Soviet agency.” Gregorian, 871
F.2d at 1522. Izvestia, in other words, was more like
the Federal Register than like the Boston Globe, and
the Soviet government’s publication of its views was
not like the private commercial publication of news.
The Seventh Circuit focused on this point in RushPresbyterian-St. Luke’s Med. Ctr. v. Hellenic Republic,
877 F.2d 574 (7th Cir. 1989), distinguishing Gregorian
on its way to holding that the Greek government was
not immune from suit on a claim that it breached a
contract with US doctors and a US hospital by
contracting with them to provide healthcare to its
citizens and then failing to pay them, notwithstanding
Greece’s claim that it was simply administering its
laws for providing health care to its citizens. See RushPresbyterian, 877 F.2d at 579.
In MacArthur, a neighborhood group sought
damages from Peru when it operated a chancery out of

15
a building zoned for residential use. As the D.C. Circuit
held, “operation of a chancery is, by its nature,
governmental, not commercial.” MacArthur, 809 F.2d
at 920 (citation omitted). The challenged act in
MacArthur was the operation of the chancery itself, not
particular activities of the government connected to the
chancery. Such activities may or may not be
commercial, while operation of a chancery is something
only governments can do. But Merlini is not
challenging Canada’s operation of a consulate. Rather,
she is challenging its conduct as her employer.
Canada cites Kato v. Ishihara, 360 F.3d 106 (2d Cir.
2004), a case it failed to cite to the First Circuit panel,
as a possible source of a circuit split. The panel
distinguished Kato on the grounds that there, the
Second Circuit had characterized the nature of the
employment as governmental. App. 18a. In fact, the
worker in Kato was a Japanese civil servant who took
a competitive examination to get her job, had lifetime
tenure, and had “a prescribed rotation of employment
placements.” Kato, 360 F.3d at 109. Judge Lynch did
not point to Kato in her dissent from the panel decision
or in her dissent from the denial of rehearing en banc.
Canada now seeks to read Kato to focus not on the
nature of the employee’s duties but on the nature of the
employer’s business. But both parties below and the
panel understood that if the gravamen of the case
involved Merlini’s employment, then the key question
was the nature of the job Canada hired Merlini to do
rather than the sovereign purpose for which Canada
hired her to do it. The panel distinguished Kato and
explained why the job duties of the worker there were
different from Merlini’s job duties. To the extent

16
Canada wants to read Kato to support a broad rule of
immunity in embassy or consular employment cases
because of the governmental nature of embassies or
consulates rather than the commercial or noncommercial nature of a worker’s job, this is not the
right case to make the argument, as it was not
developed below and the First Circuit never opined on
it.
B. The First Circuit’s Decision Is Correct.
The First Circuit’s decision was plainly correct on
the merits. If the gravamen of the case was Merlini’s
“employment … as a clerical worker doing routine
clerical work at [the] consulate in Boston,” then the
decision was plainly correct because Canada did not
argue, either to the District Court or to the First
Circuit, that Merlini’s employment was not
commercial. (App. 13a). Rodríguez v. Municipality of
San Juan, 659 F.3d 168, 175 (1st Cir. 2011) (arguments
not made are waived).10
10

Because the commercial nature of Merlini’s employment was not
disputed, Canada’s effort to create a controversy about the use of
a House Judiciary Committee report on the FSIA, H.R. Rep. No.
94-1487, 1976 U.S.C.C.A.N. 6604, that courts have used to help
illuminate the distinction between commercial and noncommercial employment, is tangential at best. The suggestion is
that the First Circuit’s citation to the report conflicts with this
Court’s rule that legislative history should not be used “to muddy
the meaning of clear statutory language,” Food Marketing Inst. v.
Argus Leader Media, 139 S. Ct. 2356, 2364 (2019) (citation and
internal quotation marks omitted). The report explains that “the
employment of diplomatic, civil service, or military personnel” was,
in the Committee’s view, “public or governmental” in nature, while
the “employment or engagement of laborers, clerical staff or public
relations or marketing agents” was, again in the Committee’s view,

17
Waiver aside, there was no argument for Canada to
make. Merlini was a clerical worker. She had no
governmental, consular, diplomatic, or other official
duties. She was a citizen of the United States but not
of Canada. She took no competitive examination before
hire, had no tenure protection, and was not a civil
servant. Wherever one draws the line between
commercial employment and non-commercial or
governmental employment—and there may be close
cases—Merlini was on the commercial side of the line.
See Holden, 92 F.3d at 920 (in employment
discrimination case, employee was a “commercial
officer” responsible for “responding to inquiries from
Canadian companies;” employment was commercial);
Segni, 835 F.2d 160 at 162 (in breach of contract case,
employee was responsible for “developing the
marketing of Spanish wines” in America; employment
was commercial); El-Hadad, 496 F.3d at 666-67 (in
“commercial activity.” Id. at 16, 1976 U.S.C.C.A.N. at 6615.
Nothing about the Committee’s view is at odds with the text of the
FSIA. Canada argues that the FSIA’s focus is on whether the
foreign sovereign is engaged in commercial activity, not whether
the employee is engaged in commercial activity. That claim is
unimpeachable but unenlightening, because the question before
the First Circuit was precisely whether a foreign sovereign
engages in commercial activity when it employs, for example, a
laborer to fix a wall, or a janitor to sweep the floor, or a secretary
to answer the phones—or when it fails to purchase workers’
compensation insurance for such workers. Moreover, neither
Merlini nor the panel made any claim about the binding or even
the persuasive force of the Committee report. If the report did not
exist, it would still be necessary to draw a line between cases in
which a foreign sovereign employer is treated as a commercial
employer and cases in which it is treated as a governmental
employer. On the record below, Merlini’s employment plainly fell
on the commercial side of the line.

18
breach of contract and defamation case, employee was
accountant with supervisory authority over other
accountants at the embassy and was “part of the …
government, in a way that an administrative assistant,
for example, would not be;” employment was
commercial) (citation omitted). Contrast Butters v.
Vance Int’l, Inc., 225 F.3d 462 (4th Cir. 2000) (employee
provided personal protection to member of foreign
country’s royal family); Kato, supra (employee was a
foreign civil servant who took a competitive
examination, had lifetime tenure, and was required to
rotate through posts in the United States and
elsewhere).
If the gravamen of the case was Canada’s failure to
purchase insurance or obtain a license as a self-insurer,
the decision was also plainly correct. Canada’s view is
that the gravamen of the case was not the fact of its
failure to purchase insurance, but its policy decision
not to purchase insurance, which it characterizes as
sovereign. That view must fail for two reasons.
1. A Foreign Sovereign Cannot Claim
Immunity By Relying On The Sovereign
Purposes Behind Its Actions.
The FSIA provides that “[t]he commercial character
of an activity shall be determined by reference to the
nature of the course of conduct or particular
transaction or act, rather than by reference to its
purpose.” 28 U.S.C. § 1603(d). Canada’s attempt to
focus not on what it did (it failed to purchase
Massachusetts workers’ compensation insurance) but
why it did it (it had made a “sovereign legislative
decision to structure its consular operations on the

19
basis that its own GECA scheme comprehensively and
exclusively governs workers’ compensation for its
consular employees”) (Pet. at 9-10) fails to honor the
statute’s plain meaning.
The case is like Republic of Argentina v. Weltover,
504 U.S. 607 (1992), in the relevant respects. In
Weltover, Argentina’s creditors sued when the country
defaulted on its sovereign bonds. Argentina claimed
immunity from suit, arguing, that the transactions in
which the bonds were issued “did not have the ordinary
commercial consequence of raising capital or financing
transactions,” and that they “differ[ed] from ordinary
debt instruments in that they were created by the
Argentine Government to fulfill its obligations under a
foreign exchange program designed to address a
domestic credit crisis, and as a component of a program
designed to control that nation’s critical shortage of
foreign exchange.” Id. at 616. The Court held that
Argentina’s “line of argument,” which asserted that
“the line between ‘nature’ and ‘purpose’ rests upon a
‘formalistic distinction [that] simply is neither useful
nor warranted’,” id. at 617 (citation omitted), was
“squarely foreclosed by the language of the FSIA.” Id.
“[I]t is irrelevant why Argentina participated in the
bond market in the manner of a private actor; it
matters only that it did so.” Id.
In Weltover and here, the foreign sovereign pointed
to a national policy it regarded as important—relieving
a shortage of foreign exchange for Argentina, applying
a uniform rule to workers’ compensation for consular
employees around the world for Canada. In both cases,
what the foreign sovereign did was precisely the same

20
as what a private business might have done in the
same circumstances. Argentina issued bonds to secure
debt. Canada failed to purchase insurance for its
Massachusetts workers. When Canada argues that it
did not simply fail to buy insurance but instead
“created a scheme to compensate consular employees …
by a quintessentially sovereign means” (Pet. at 16-17),
it makes the same move that Argentina made in
Weltover, and the move fails for the same reason.
Canada’s failure to insure in Massachusetts is not
reducible to its policy decision. If Canada had made a
different policy decision and had decided to purchase
Massachusetts insurance, but a bureaucrat had, say
through inadvertence, failed to send a check to the
insurer, Canada would still have been an uninsured
employer and Merlini would still have had a commonlaw tort claim. Canada would not have been able, in
that case, to argue that the gravamen of the case was
its sovereign decision about how to insure against
workplace injuries, because it would have made no
sovereign decision not to insure under Massachusetts
law. And if a bureaucrat had, through inadvertence or
mistake, purchased Massachusetts workers’
compensation insurance despite the country’s policy
decision, then Merlini would have had no claim.
Canada’s position implies that a foreign sovereign is
immune from jurisdiction when it violates US law
purposefully, but not when it does so inadvertently. But
that goes to purpose—precisely what 28 U.S.C.
§ 1603(d) forbids courts to consider when deciding
whether an activity is commercial.

21
2. Facts And Circumstances That A
Plaintiff Does Not Need To Plead Or
Prove Cannot Possibly Be Part Of The
Gravamen Of Her Case.
Identifying the basis of a case requires identifying
“the particular conduct on which the [plaintiff’s] action
is ‘based.’” Nelson, 507 U.S. at 356. It is not sufficient
to conclude that a single element of the claim would fall
within an exception to FSIA immunity; nor is it
necessary to undertake an “exhaustive claim-by-claim,
element-by-element analysis” of the claims in the
complaint. OBB Personenverkehr AG v. Sachs, 136 S.
Ct. 390, 396 (2015). Instead, the court must look to the
“gravamen of the complaint,” and “those elements …
that, if proven, would entitle a plaintiff to relief.” Id. at
395.
In Merlini’s case, Canada’s decision about whether
to use its own workers’ compensation system or comply
with Massachusetts law cannot be the basis of
Merlini’s complaint, because Merlini did not have to
plead or prove anything about the decision in order to
make out her claim. If the lack of insurance forms part
of the basis of the claim, it is the lack itself, and not the
reason for the lack, that matters. The complaint could
have been entirely silent about GECA and the reasons
for Canada’s failure to purchase insurance in
Massachusetts, and Merlini’s claim would have been
unchanged.
In Weltover, the issuance of the bonds was the basis
of the action, which the Court found to be a commercial
act. Issuance of a bond must be crucial to an action on
the bond, in the same way that a negligent act must be

22
crucial to an action for negligence. Weltover contrasts
strongly with Nelson and Sachs. In those cases, the key
facts relevant to the case took place abroad and the
supposed commercial conduct in the United States that
underlay the plaintiffs’ jurisdictional claims were
merely incidental. In Nelson, an American worker
claimed he had been hired in the United States to work
at a Saudi hospital and that he had been falsely
imprisoned and tortured by the Saudi government
while in Saudi Arabia. Nelson, 507 U.S. at 352-353. In
Sachs, an American traveler who had bought a
European train ticket in the United States claimed that
she was injured in a railway accident in Austria. Sachs,
136 S. Ct. at 393-95. Both Nelson and Sachs featured
plaintiffs who pleaded their cases creatively in order to
try to manufacture jurisdiction. But that was not true
in Weltover, and it is not true here, as the First Circuit
understood:
Merlini’s chapter 152 claim was not part of some
shrewd litigation strategy aimed at navigating
around Canada’s sovereign immunity. It was,
instead, the only claim that Merlini could bring
against her employer for the workplace injury
that she suffered under the statutory framework
established by the Massachusetts legislature for
permitting employees to seek redress for such
injuries from their employers.
(App. 17a). Indeed, it is Canada that seeks to avoid
jurisdiction by use of a shrewd litigation strategy.
Canada argues that Merlini’s claim is based on facts
and circumstances—the decision not to have insurance
rather than the mere failure not to have

23
circumstance—that have nothing to do with her claim
and that she does not need to plead, prove, or even
mention in order to prevail. Nor is entitlement to
benefits under GECA or even receipt of benefits a
defense to a common-law claim against Canada, see
Barrett, 374 N.E.2d at 1326 (noting compensation “was
in fact being paid” under another state’s law). The only
role Canada’s policymaking has in the case is to
support an argument against jurisdiction. It has
nothing to do with the merits of the claim and therefore
cannot be the basis of the claim.
C. This Case Is A Poor Vehicle.
The First Circuit held that assuming the truth of
the allegations in the complaint, the District Court
erred by dismissing the action for lack of subjectmatter jurisdiction. But Canada has promised that it
will renew its jurisdictional argument if there is a
remand, this time by offering evidence rather than
simply attacking the sufficiency of the pleadings. Thus
there are strong prudential reasons to deny the
petition. Ordinarily the Court will not grant review of
a non-final decision “unless it is necessary to prevent
extraordinary inconvenience and embarrassment in the
context of the cause.” Am. Constr. Co. v. Jacksonville,
Tampa & Key W. Ry. Co., 148 U.S. 372, 384 (1893). See
also Va. Military Inst. v. United States, 580 U.S. 946
(1993) (opinion of Scalia, J., respecting the denial of
petition for certiorari).
This prudential rule is especially apt here, because
if this Court takes the case, it could decide it in a way
that does little to suggest how the new jurisdictional
arguments Canada means to make should come out. If,

24
for example, this Court decides that on the facts of the
complaint, the case is based upon Merlini’s
employment, and if on remand the District Court must
decide whether the employment was or was not
commercial, the Court’s decision about the sufficiency
of the allegations of the complaint will not control the
outcome of the case—if, as Canada claims, the true
facts are at odds with the allegations of the complaint.
Nor will this Court’s decision have any bearing on the
outcome of the additional legal arguments Canada
failed to raise below but may raise on remand, for
example, the Vienna Convention argument.
D. The First Circuit Decision Poses No Real
Risk to Foreign Sovereigns Doing Business
Here or to the US Government When Doing
Business Abroad.
The dissenters from denial of rehearing argued that
the majority’s decision was “in derogation of principles
of comity” and would “precipitate a reciprocal effect on
this country’s foreign affairs at its numerous embassies
and legations abroad.” App. 55a. There is no real
reason for concern. First, a foreign sovereign that does
not want to litigate disputes with its employees in US
courts can include a choice of court agreement or an
agreement to arbitrate in its written contracts of
employment. An agreement between Merlini and
Canada to arbitrate employment disputes in Canada,
for example, would have fallen under the Convention
on the Recognition and Enforcement of Foreign
Arbitral Awards, Jun. 10, 1958, 21 U.S.T. 2517, 330
U.N.T.S. 38, and would therefore have been enforceable
in the United States, because her employment was

25
commercial. See, e.g., Lim v. Offshore Specialty
Fabricators, Inc., 404 F.3d 898, 903 (5th Cir. 2005).
And while no treaty would similarly obligate the
United States to honor a choice of court agreement
requiring disputes between Merlini and Canada to be
heard in a Canadian court, written choice of court
agreements are presumptively enforceable. See Atl.
Marine Constr. Co. v. U.S. Dist. Court for the W. Dist.
of Tex., 571 U.S. 49, 63-64 (2013).
Second, the United States itself takes the position
in this case that Canada should not be immune from
suit on the facts pleaded, though on different grounds
than the grounds on which the First Circuit based its
decision. The courts should not stretch to construe the
FSIA to give foreign states immunity in cases where
the United States itself suggests that the foreign state
has no immunity (and where the United States
presumably would not claim immunity if the same case
were brought against it abroad), because “reciprocal
self-interest” is one of the bases of the United States’
consent to exempt foreign sovereigns like Canada from
our courts’ jurisdiction in most cases. See Nat’l City
Bank of N.Y. v. Republic of China, 348 U.S. 356, 362
(1955).
Third, Massachusetts’s statute is unique.
Apparently no other American jurisdiction gives an
injured worker a common-law claim against an
uninsured employer without proof of negligence. In any
other jurisdiction, the courts would likely reach a
different outcome, holding that the basis of the action
was not the failure to have insurance, but rather the
negligence that caused the injury. See Sachs, 136 S. Ct.

26
at 396 (quoting a letter from Justice Holmes to thenProfessor Frankfurter: “the ‘essentials’ of a personal
injury narrative will be found at the ‘point of
contact’—‘the place where the boy got his fingers
pinched’”). A decision from a single state, with many
fewer embassies or consulates than jurisdictions such
as New York or the District of Columbia, is unlikely to
be repeated elsewhere and is unlikely to disrupt the
nation’s foreign relations.
CONCLUSION
For these reasons, the petition for a writ of
certiorari should be denied.
Respectfully submitted,
Of counsel:

Theodore Joel Folkman
Counsel of Record
Folkman LLC
Alan S. Pierce
Pierce, Pierce & Napolitano PO Box 116
Boston, Mass. 02131
27 Congress St.
(617) 219-9664
Salem, Mass. 01970
ted@folkman.law
Counsel for Respondent

